Petition foR Rehearing
far denlded Petiiton Rr a cunit of CeRiioRaRi
Package of ISp^ges
faR the Case /Vo. 20-5477

Hamid Reza fadan eh
V.

f/assachu seifs, etah
PRO-Si
By Hamid Reta Redaneh
Me 04,05,2021
Hamid Reza fadaneh
Bniclgeouatea State Hospital
20 f\d ministration Road
Sr tdaeu/aieR PiR 02324
Cleak of the
Supreme Count of the If S.
One Ft?s / Street, IV. E.
Washington, 0. C. 20543
This Petition for Rehearing 'is presented in good faith and not for delay.
Signed pursuant to 28 US C 1746 under penalty cf perjury under the Ictus of
the United States of America that the Rregoing is true and Correct*
Dah 0 4 (OS, 2021

Respectfully Submitted

P80-SE

By Harold Reza flrdaneh

Statement of facts
ihe PUeged victim my Iranian wife cf 18 years and my son are.
.Jewish but I am not Jewish. The United States by plot and frick
.; g.&ve visa Refugee for me and my family and ye absolu tefy. legal. Came.
.Jo the United States on 10; Of 20 IS and then Hy wife's U.S, Jewish
family offered He money and Support from the U.S.- Government
/if I he Jeoofsh hut I did not accept do change Hy. Religion... and be.
..Jewish and then offered te> any wife.. for Pm erica n Jeer i sh rich
. husband and Support from the U. S, Government andwhole U, S, fetish
family and better fife and she accept to ..making.false, crim .ejneep. me
fr whole life in jail, or to deported He because the U.S, Govern men t
.da king my Son from me and making Jewish has band fr my oJjfe„.
On 6/10/2016 the dllleged victim Sanaz S.iyonfi and her Family /Jacob
. Babaiy David Merfeld and Bennie F^iedman Stole all my Honey . On,
b,/ 7/2016 the Alleged victim filed Allegedly fa I se Restrain lag order
i,j hearing date was on 6/27,2016, police brought ms toy. Hotel lyas.not
. ■ arrested, On 6,19, 2.016 ihe R11 eged victim sen t text messages, fo r the.
j£ Counts of the Intimidat/ofof witness' by threatened and. S counts cf
J the Bribing the Defendant first by $ I000then $ .2000.,.then $ 7000
... and lastly $ IE 00 0, also said paid $ 1.00.0 and bought theairline
..ticket for me/[ not must go to the Court and must leave the. U-S. /L
,i Immediately or l will be arrested, Jailed and deported iff. am net
[accept the Bribes* hi Iso Can See in the video on b/1 f 20 lb.at 7 to 8 fH
.'Jacob, David and Bonnie meet me at the lobby Cambridge police Station
.land Under review of camera Counted $ 7000 in cash and gave me the
hairline ticket staling if I am go to the airport .1 will.get this $7000
: j\n the airport, at 7: 4-5 PH lam Refused to lake the Bribes from Jewish

I of (4

.people and Refused F sell my family and Re fuzed fa leave fhe U-S. ft*
..Pnd cancelled the airline ticket, 30 minutes after at f>:22 Pro the
..Alleged victim Filed Allegedly false police .reports for false charges
.. On C/2, 20'6 Rr 17days before,, Dm 6/20/.2QJ6. the Alleged victim, sent
voicemails to my Sister and Stated 1 wanted do.give him $ 7000 p!as$ 1000
. for his flight yesterday but Re didn&t accept, Ahe Commonwealth one day
...after I am Refused to fake the Bribes and h sell, my family on 6/20; 2016 .
i:Mlsgedly Un.can$ii tution a! an.d absolutelyJite.g.al arrested[and.JaiJed
.me/ ignoring my evidences of the video /the text messages /thevoicemails
and the Copy of the airline ticket, my Statement and my Brief,. aodoJithouf
fights to Counsel and any Constitutional tights by. Allegedly false brand.
.Jury minutes" making false Indictments for me. On %/2/20J7after fired
,Aih fake.Defense Counsel l am Requested Ip Represent my self to Use. my
..evidences and .Brief fr prove my Innocence and ffafia Systein the
Massachusetts making Falsely incompetent tor; stand trial by Allegedly
— i

false evaluations, making false men la! illness and forcing me to hi ke

yfalse Psych medications and is. S years deprived of life andlibertytor.
..ms and whole Country, State and Federal. Courts denied ed my Requested for
} a Justice because ignoring facts proved by evidences and hiding actual
.[Crimes to protecting 4 guilty American Jewish.people and by Discrimination
.[against Iranian innocence. I f you have Justice in the United States 1
..\am deserve the Supreme Court of the U* S- granted my petition and give me
chance to file my Brief and my eviden ces,..AIso other evidence 1 have 253
'i American employees of the Bridgewater State Hospital of Doctors and
i

,| nurses and all Staff Signed For Supporting.of facts and proved l am not
dangerous, not mentally ill and lam always Respectful to everybody but the
.sMafia want keep me for whole fife in. the Hospital.

2ofl 4

List and Reasons of all errors and abuses

1. Discriminated Allegedly unconstitutional without any prove and absolutely illegal arrested the
Defendant.
2. Discriminated Allegedly unconstitutional without any prove and absolutely illegal by false
Judgment Jailed the Defendant.
3. Allegedly false police reports.
4. By Allegedly unconstitutional false grand jury without any prove making false indictments for
the Defendant,
5. The grand jury failed to hear any evidence of criminal activity by the Defendant.
6. The district attorney failed to present the exculpatory Informastions and the Defendant’s
exculpatory material evidences to the grand jury.
7. There is no rights to counsel under the Sixth Amendment to the U,S, Constitution. The
Commonwealth of Massachusetts using my attorneys for making false guilty for the false
crimes not for Defense me, All Attorneys on purpose only harm me. The United States by this
trick forcing me to fire attorneys and wants falsely said if he refuse to take medications he fired
attorneys he is mentally ill and cannot work with attorneys. So the United States using my
attorneys for making fake and false mental illness for me and forcing me to take false psych
medications not for Defense me also by this trick making falsely incompetent for stand trial
and deprived of life and liberty for actual innocence Iranian legal refugee the Defendant
because there is no any evidence for the trial to make him guilty. So the United States using
my attorneys for making fake and false mental illness or false guilty or falsely incompetent for
stand trial and keep me for whole life in jail or hospital because hiding actual crimes for
protecting actual guilty American Jewish rich people that why all attorneys refusing to use my

3 of !4

statement, my PRO-SE Brief, my exculpatory material evidences and my witnesses, refusing
for investigation in my false case and refusing for file a complaint against the Alleged victim
and her family for the intimidating and the bribing the Defendant because they are American
Jewish Rich. The United States using fake defense counsels for injustice, hiding crimes to
protecting guilty and against actual innocence and using attorneys for deprived of all
fundamental and all Constitutional rights for the defendant not for defense him. If the
Commonwealth pay for counsels all counsels only working for the Commonwealth not for me
that why is fake rights to counsel.
8. The Courts making false excuse of competency for deprived the defendant of rights to proceed
PRO-SE, also ignoring PRO-SE motions to discharge counsel and for the appointment of new
loyal and effective assistance of counsel and refusing to hear all PRO-SE motions and violated
all Constitutional fights for the defendant.
9. I have the rationale as well as the factual understanding of the proceeding against me, I am not
mentally ill and hot dangerous, so absolutely i am competent for stand trial but the
Commonwealth only by allegedly unconstitutional false evaluations and reports without any
evidence for prove by absolutely false judgments making falsely dangerous to other and
likelihood of serious harm for making falsely incompetent for stand trial for me.
10. There is no true rights for independent evaluation because I cannot choice my own doctor and
there is no rights to true evaluations because the Commonwealth only using liar doctors and all
evaluators without any evidence for prove of any mental illness absolutely illegal only using
my false criminal charges and my false police reports and ignored I am actual innocence, did
not any crime, did not fight and not harm anyone in whole my life but by order from U.S.
Government all liar doctors without any prove falsely call me mentally ill and dangerous to
others.

4 of / 4

11. There is no rights for true translation by certified interpreter. I am a legal refugee English is my
second langue and my English is not perfect so is necessary to true translation but the
Commonwealth of Massachusetts using interpreters for false translations to hiding facts and
making false guilty for me in the false criminal and mental cases,
12. The Courts violating my rights to use my witnesses. I have two witnesses, for proved of the
Alleged victim and her family the intimidating and the bribing the defendant 30minutes before
filed false police reports, I have the witness who is the first psychiatrist and Was not liar reported
I am not mentally ill, not must take any psych medication and he does not know why I am in
the hospital. Also I have 308 witnesses of inside the hospital and 253 American employee of
. the Bridgewater State Hospital signed for supporting of facts and proved I Hamid Reza Ardaneh
am not dangerous, I did hot anything wrong, I am always respectful to everybody, I am not
mentally ill and not criminal but the Commonwealth ignoring all witnesses and I have no rights
to use any of the witnesses because all Judges hiding facts for making false mental illness,
falsely incompetent or false guilty for me to hiding crimes for protecting guilty American
Jewish people.
13. There is not rights to discovery because the Commonwealth did not present any evidence of
criminal activity by the defendant, did not present any evidence or any reason for illegal
arrested and jailed the defendant, did not present any evidence for keeping him in a mental
hospital or for falsely incompetent, did not present any evidence for prove of any mental illness
or dangerous to others or likelihood of serious harm or for forcing him to take false psych
medications. Also is 5 years the Commonwealth of Massachusetts, all Courts, all Judges, all
clerk, the district attorneys, non-loyal and ineffective fake defense counsels not accept, ignoring
and refusing to file my statement of facts and exculpatory informations , my PRO-SE Brief and
my exculpatory material evidences and refusing for investigations for the false cases and false

Scf 14~

charges because hiding actual crimes for protecting guiltys the alleged victim and her family
because they are American Jewish Rich and making false crimes to jailed for whole life actual
innocence Iranian legal refugee the defendant or to deport him because he is not Jewish but his
Iranian wife of 18 years and his son are Jewish and the United States taking his not from him
and making American Jewish husband for his wife.
14. The Commonwealth of Massachusetts and all Judges of the Brockton District Court always
violated all my Constitutional rights, no rights for independent evaluation, no rights to counsel,
no rights to discovery, no rights to use my witnesses, no rights to true translation by certified
interpreter, no rights to use my exculpatory material evidences and no rights to represent
myself, on purpose making absolutely unfair trial for forcing me to protest for injustice and by
this trick making falsely reason of mental illness and kick me out the Court room because they
know I have enough evidence can defense myself and to win false case and like that by trick
hiding facts and only by allegedly unconstitutional false evaluations and false testify without
any evidence for prove of any mental illness or any dangerous to others or any likelihood of
serious harm making false judgments for falsely incompetent for stand trial, one more year
deprived of life and liberty in the hospital, punishment for actual innocence and forcing to take
false psych medications for not mentally ill to kill my brain because I am so smart.
15. The Commonwealth by falsely in. competent for stand trial and false mental illness deprived
me of self-representation and by punishments of deprived of life and liberty in the hospital
and forcing to take false psych medications wants to forcing me to accept non loyal, ineffective
and fake defense counsels for not using my evidences to make me guilty for false crimes and
jailed me for whole life because hiding crimes for protecting guilty the alleged victim and her
family because they are American Jewish Rich that why every time I am fired my attorney
forcing me to take more false psych medications and my treatment team stated I must accept

6 of 14-

non loyal and ineffective fake defense counsels, I must forget and not use my exculpatory
material evidences in the Courts.
16. The Commonwealth using mental and physical torture, attack physically and mentally for
forcing me to fight or to do crime because wants making false meatal illness or dangerous to
others for me.
17.1 Hamid Reza Ardaneh have no any record, did not broken any law, did not any crime, did not
fight, did not touch, did not harm anyone in whole my life, I am not mentally ill, not dangerous
and not criminal and I am always respectful to everybody that why the Commonwealth of
Massachusetts have no any evidence for prove of illegal arrested and jail me, illegal keeping
me in the mental hospital, falsely call me Incompetent for stand trial and illegal forcing me to
take false psych medications and that why the United States refusing to investigations for my
claims and the false cases.
18. The defendant have the exculpatory material evidences of the video of the alleged victim’s
family 30 minutes before the police reports under review of the camera at lobby of the
Cambridge police station counted cash of $7000 and gave the airline ticket to the defendant for
the intimidating and the bribing the defendant, translated of the voicemails and the text
messages left by the alleged victim on 17 days after false crimes and before filed the false
police reports 5 counts of the intimidating and 5 counts of the bribing the defendant, copy of
the airline ticket and investigation of the airline ticket proved the alleged victim and her family
the intimidating and the bribing the defendant before filed the police reports and 17 days after
false crimes, 308 witnesses and 253 American employee of the Bridgewater state hospital
signed for supporting of facts and proved I Hamid Reza Ardaneh am not dangerous, I did not
anything wrong, I am always respectful to everybody, I am not mentally ill and not criminal, 3

7 of /4

reports of the first psychiatrist stated I am not mentally ill. I not mus t take any psych medication
and he does not know why I am in the hospital.

..

.

19. The alleged victim, sent a letter and new pictures for the defendant in the jail. DoC in the jail
Billerica stole all evidences from the defendant because the Commonwealth wants to destroyed
all his evidences but the defendant’s family have and save all his evidences and sent for him
again but the Commonwealth destroyed the pictures and the video evidences.
20. I am fired 7 mental Health and 7 criminal defense counsels because there is.no any result and
all attorneys on purpose only harm me. The Commonwealth of Massachusetts by fake defense
counsels deprived me of all my fundamental rights and violating Amendment 1,5, 6 and 14 to
the U.S. Constitution, Article 1, 10, 11, 12 and 29 to the Massachusetts Declaration of rights,
my civil rights and surely my human rights.
21. If you review all this errors and abuses, my PRO-SE Brief, my exculpatory material evidences,
my PRO-SE motions to discharge counsel and for the appointment of new loyal and effective
assistance of counsel and my PRO-SE motion to dismiss and to consider the Commonwealth
have no any evidence clearly can understand whole criminal and mental Health cases and all
my charges are false and plot from the U.S Government to jailed me for whole life or to
deported me or to kill me because taking my family from me and give to Jewish people and
hiding crimes for protecting guilty American Jewish people.
22.1 do not have any challenge for competency, I have challenge only for prevent of discrimination
and injustice, I do not have any rights in the United States, for all this errors and abuses call
injustice and I am only requested “A Justice” in the United States.

25. In this 5 years So many time! am sent by Certified mail my Brief and
ny eviden ces For the District fl Homey and Clerk of ih e Middlesex
Superior Court hut they always ignored and never entry in the Case,

8 of 14

Sixth Amendment and Article 12 to the Mass. Constitution

The Supreme Court has recognized that the Sixth Amendment right to a counsel exists, and is
needed, in order to protect the fundamental right to a fair trial. The Constitution guarantees a fair
trial through the Due Process Clauses, but it defines the basic elements of fair trial largely through
the several provisions of the Sixth Amendment; including the Counsel Clause. Strickland v.
Washington, 466 U.S. 668 at 685. “Thus, a fair trial is one in which evidence subject to adversarial
testing is presented to an impartial tribunal for resolution of issues defined in advance of the
proceeding. The right to counsel plays a cmcial role in the adversarial system embodied in the
Sixth Amendment, since access to counsel’s skill and knowledge is necessary to accord defendants
the ‘ample opportunity to meet the case of the prosecution.’ “Here this prima-facie pleading alleges
a substantial and serious deficiency below that of a competent causing this Defendant a severe
prejudice as a matter of law, the trial record affirmatively demonstrates beyond any doubt that if
counsel had done each of the things the Defendant asked him to do the outcome of process would
be different. The Defendant brought to the attention of multiple counsels, as well as judges that
exculpatory evidence to include video of the Alleged victims’ family counting cash of $ 7,000
bribe in the lobby of the Cambridge Police Station 30 minutes before the Alleged victim (his wife)
filed the Police report. The gross and unacceptable failure of counsels to pursue this legal matter
and trusted to counsel has resulted in an outrageous prejudice and has impaired the AngloAmerican adversarial system to produce a just result. The Sixth Amendment recognizes the right
to the assistance of counsel because it envisions counsel’s playing a role that is critical to the ability
of the adversarial system to produce just results. An accused is entitled to be assisted by an attorney,
whether retained or appointed, who plays the role necessary to ensure that the trial is fair.

7 of 14

For that reason, the Court has recognized that “the right to counsel is the right to the effective
assistance of counsel. “If the Court for 5 years only keeping name of counsels in the case without
any result that is not rights to counsel for Hamid. Here counsel’s performance was so deficient and
their errors were so serious that counsel was not functioning as the “counsel” guaranteed the
defendant by Sixth Amendment. Counsels’ errors in the case at bar are so serious has to deprive
the defendant a video evidence in which would have cast serious doubt on credibility of the Alleged
victim. The error has deprived the defendant of a fair trial and it is clear that counsel has failed in
their duty to bring bear such skill knowledge as well as loyalty as to render the trial a reliable
adversarial process as guaranteed by the Sixth Amendment. Here without doubt to the lost video
evidence would have supported the Plaintiffs’ case see Commonwealth V. Williams, 455 Mass.
706,718,919 N.E. 2d 685 (2010). This Court then must “way the materiality of the evidence and
the potential prejudice to the defendant as well as the culpability of his CPCS attorneys who failed
to pursue the legal matter and entrusted to counsels.

10 of 1,4

Article 11 to the Mass. Constitution

The Defendant claims he have violated his rights under Article 11 of the Massachusetts Declaration
of rights. Art. 11 of our Declaration of rights guarantees to every citizen the right to “obtain right
and justice freely, and without being obliged to purchase it; completely, and without any denial;
promptly, and without delay; conformably to the laws, “and without having to file a lawsuit. Here
the Defendant to the attention of several Judges that his lawyers were not pursuing a litany of
exculpatory evidence to include video of the Alleged victim’s family counting cash of $ 7,000 in
the lobby of the Cambridge Cambridge Police station 30 minutes before the Alleged victim filed a
Police Reports. As well as the messages of the intimidations. and the bribes directly in the
Defendant’s hands in open Court. Yet Judges failed to take any inquiry into the fairness of these
proceedings or effectiveness of counsels’ representation. That has reduced these proceedings to a
sham. This Defendant under Art. 11 should not have to purchase his guaranteed trial rights by filing
this Prima- Facie case of retaliation. Article 11 already provides these rights under the State
Constitution. To have to use the First Amendment petition clause to enforce these rights is “grave
unfairness” and has brought the judiciary into disrepute.

II J 14

Article 29 to the Mass. Constitution

The Defendant claims his rights under Article 29 are being impinged based upon extra-judicial
source of their natural district the Defendant’s national origin of being Iranian as well as a language
barrier this impermissible Consideration is having a discriminatory affect up the Defendant’s
Rights under Article 29 of Massachusetts Declaration of Rights. The Judges’ outward expression
of partiality and willful disregard of Law during deliberative process in motions to discharge
counsel out of severe personal animosity but for cause discrimination toward national origin has
affected Reasonable judgment and has manifest of bias and prejudice. Such bias and prejudice in
the Defendant’s proceedings have impaired the fairness of the proceeding and have now brought
the judiciary into disrepute. See S.J.C Rule 3:09, Canon 3(b)(5), as appearing in 440 mass. At 1312,
Commentary to B 3B (5). There is no question this prima-facie pleading poses a serious dispute
concerning the administration of justice now requiring injunctive relief in the case at bar there has
been partial interpretation of the laws as well as a willful disregard for the Defendant’s guaranteed
Fifth, Sixth and Fourteenth Amendment trial rights effective assistance of counsel and compulsory
process. Commonwealth v. Rogers clearly the S.J.C. made clear motions to discharge counsel
requires action yet the lower Courts have completely ignored the Defendant’s substantive
assertions that CPCS attorneys’ are totally denying assistance this prima-facie pleading has alleged
sufficient facts, except it as true to state a claim of relief under Article 29 of the Massachusetts
Declaration of Rights. Require an injunctive relief.

12 of 14

Potential Prejudice

The potential prejudice to Hamid caused by ineffective assistance counsel is off the charts. They
falsely said that the lost video evidence cannot be replaced. Counsels’ failure to hold the prosecutor
accountable to Brady order is a substantial departure from acceptable standards and prevailing
norms of practice as reflected in American Bar Association standards, e.g.ABA standards for
criminal justice 4-1.1 to 4-8.6 (2d ed. 1980). Recently the S.J.C. ruled on May 8,2018 CPCS &
other v. Attorney General, S.J.C-12471 “Rule broadly defines exculpatory evidence as any facts of
an exculpatory nature.” The S.J.C. further ruled that Mass. R. Crim. P. should include Brady
checklist. Consistent with this opinion CPCS attorney failed to pursue exculpatory material
showing “actual innocence” causing a severe prejudice. The trial Judges’ refusal to allow Hamid a
voice to be heard in his own criminal prosecution as well as outward expressions of partiality and
willful disregard of law has brought the judiciary into disrepute and has impaired the fairness of
Hamid’s proceedings.
Closing pursuant to its general superintendence powers under G.L.c.211 section 3, the single justice
of the Supreme Judicial Court has the authority to take any action necessary in the furtherance of
justice, the regular execution of the laws, and the improvement of the administration of justice for
Hamid in Middlesex Superior Court. Commonwealth v Obrien, 432 Mass.578,583-84(2000).

Signed pursuant to 2% (JSC \7cb under penotfy ofperjury under the
[au<, of the Untied States of America that the foregoing ad paragraph of
this Petition for Rehearing is true and c&rrec t>
Dah 04-/OS, 2021

Respectfully iubmilied

PRO-SE

By Hanid fteza fh'daneh

13 of l ft

